      Audit of the District of Columbia
Administration of Disaster Assistance Funds
                                                                      T.S. Department of Homeland Security
                                                                      3003 Chamblee-Tucker Road
                                                                      Atlanta, Georgia 30341




                                     July 22,2005

MEMORANDUM FOR:               Patricia G. Arcuri
                              Acting Regiodal                     egion I11

FROM:


SUBJECT:             I        Audit of the District of Columbia
                              Administration of Disaster Assistance Funds
                              Audit Report No. DA-2 1-05

Attached for your review and follow-up are five copies of the subject audit report that was prepared
by an independent accounting firm, Leon Snead & Company under contract with the Office of
Inspector General. In summary, Leon Snead & Company determined that the District of Columbia
Emergency Management Agency should improve certain financial and program management
procedures associated with the administration of disaster assistance funds.

On June 17,2005 your office responded to the draft report. Based upon your response, Finding B. 1
is closed and requires no additional action. Findings A. 1 and B.2 are resolv,ed, but requires an
additional response describing actions taken to implement the recommendations.

Please advise the Atlanta Field Office-Audit Division by August 22, 2005, of the action taken.
Should you have any questions, please contact George Peoples or me at (770) 220-5242.

Attachments
                                                                                               CeriiJied PllElir Acco1!ntn?2is
LEON SNEAD                                                                                     t.Mailngeiizcnt C o i i ~ z i l t c ris~

& COMPANY, PC.
416 Hungerford Drive,Suite 400 

Rockville, Maryland 20830
301-738-8190 

fax:301-738-8210 

leonsnead.c~mpanypc@erols.corn 

                                                                      July 5, 2005


          Department of Homeland Security
          Office of Inspector General
          Washington, DC 20528

          Leon Snead & Company, P.C. conducted an audit of the District of Columbia Emergency
          Management Agency (Grantee) to assess its compliance with the Robert T. Stafford Disaster
          Relief and Emergency Assistance Act (as amended) and applicable federal regulations. The audit
          was conducted at the request of the Department of Homeland Security (DHS), Office of Inspector
          General.

          The audit objectives were to determine if the Grantee administered grant programs in accordance
          with federal regulations, and accounted for, reported and used Federal Emergency Management
          Agency (FEMA) program funds properly. We found that the Grantee needed to: (1) document its
          internal control systems and project monitoring activities; (2) ensure federal funds are used
          properly; and (3) prepare required closeout documents for the IFG program.

          The audit was performed under the authority of the Inspector General Act of 1978, as amended,
          and in accordance with generally accepted government auditing standards, DHS's Office of
          Inspector General audit guide and 44 Code of Federal Regulations (CFR). Although the audit
          report comments on certain financial related information, we did not perform a financial audit the
          purpose of which would be to render an opinion on financial statements. The scope of the audit
          consisted of financial and program activities for three Presidential disaster declarations open as
          of September 30, 2002. We reviewed 46 Public Assistance and Hazard Mitigation projects with
          federal share costs of about $2.5 million. Administrative plans, disbursements, timeliness of
          payments and grant closeout requirements for the Individual and Family Grant program were also
          evaluated.

          An exit conference was held to discuss the findings and recommendations included in the report
          with FEMA Region III officials on May 16, 2005, and the Grantee on May 17, 2005. We have
          included the written comments from Region I11 and the Grantee as Attachment B to this report.
          Leon Snead & Company, P.C. appreciates the cooperation and assistance received from Grantee
          and FEMA personnel during the audit.

                                                                       Sincerely,
                                                                                          Emergency Management Agency
FEMA                                                                                                District of Columbia




                                           TABLE OF CONTENTS
                                                                                                                            Page 


I.     Executive Summary ................................................................................................. 1 


I1.    Introduction .............................................................................................................. 2 


I11.   Objectives. Scope. and Methodology ....................................................................... 4 


IV .   Findings and Recommendations .............................................................................-6 


       A . Financial Management ....................................................................................... 6 


                  1. Internal Control System Documentation.....................
                                                                              ........................6 


       B . Program Management ........................................................................................ 8 


                  1. Project Monitoring .................................................................................8 

                  2 . Closure of Individual and Family Grant Program ..................................9 


       Attachments ........................................................................................................... 11 


               A.          Schedule of Source and Application of
                            Funds as of September 30. 2002

                              Overall Funds (by Program type. i.e.. PA. IFG. HM) ................... 12 


               A- 1 - A.3 .            Schedule of Source and Application of Funds ...................... 13 


               B . Management Comments ......................................................................... -16 





Leon Snead dk Company. P.C.
                                                               Emergency Management Agency
FEMA                                                                     District of Columbia



                             I. EXECUTIVE SUMMARY


Leon Snead and Company, P.C. has completed an audit of disaster assistance grant
programs administered by the District of Columbia Emergency Management Agency
(Grantee). The audit objectives were to determine 'if the Grantee administered Federal
Emergency Management Agency (FEMA) grant programs in accordance with federal
regulations, and accounted for, reported and used program funds properly. This report
focuses on the Grantee's systems and procedures for assuring that grant funds were
managed, controlled, and expended in accordance with Robert T. Stafford Disaster Relief
and Emergency Assistance Act (as amended) and applicable federal regulations.

Our audit focused on three disasters open as of September 30, 2002. These disasters had
total obligations of about $5.4 million (federal share $4.1 million), and total expenditures
of about $3.5 million (federal share $2.6 million). We reviewed 46 Public Assistance
(PA), and Hazard Mitigation (HM) projects with a Federal share of about $2.5 million.
Administrative plans, disbursements, timeliness of payments and grant closeout
requirements for the Individual and Family Grant (IFG) program were also evaluated. We
completed our fieldwork on December 12,2003.

Our findings regarding financial and program management are summarized below, and
discussed in detail in the Findings and Recommendations section of this report. Except
for the findings contained in this audit report, nothing came to our attention during the
audit that questioned the accuracy of information contained in the financial reports
submitted to FEMA.

Financial Management

           The Grantee did not document internal and management control systems to
           ensure its controls were adequate and being followed.

Program Management

           HM project files did not include sufficient evidence to support effective
           project monitoring.

           Closeout documents for the IFG program were not prepared within the
           required timeframes.




Leon S~zead& Company, P.C.
                                                              Emergency Management Agency
FEMA                                                                    District of Columbia


                                 11. INTRODUCTION

DISTRICT OF COLUMBIA EMERGENCY MANAGEMENT AGENCY

The District of Columbia Emergency Management Agency (Grantee) is an agency within
the Executive Office of the Mayor. Its mission is to reduce the loss of life and property,
and protect citizens and institutions from hazards by operating and maintaining a
comprehensive all-hazard, community-based emergency management infrastructure.
Under the authority of Commissioner's Order 74-267 and District of Columbia Law 3-
149, the Agency was delegated responsibility for directing, administering and
coordinating all emergency management activities for the Nation's Capital. These
responsibilities included administering and managing disaster assistance grant programs.

The Director is appointed by the Mayor of the District of Columbia. The Director is a
member of the Mayor's Council, and serves as the Chairman of the Special Events Task
Group and the Emergency Preparedness Policy Council. As of September 12, 2003, the
Grantee had 35 permanent employees assigned to nine divisions.

Our audit concentrated on the PA, HM, and IFG programs. Two permanent employees
managed these programs on a daily basis. Other Grantee employees assisted in carrying
out emergency functions during disasters.

THE DISASTER ASSISTANCE PROGRAMS

The Robert T. Stafford Disaster Relief and Emergency Assistance Act (as amended)
governs disasters declared by the President. Following a major disaster declaration, the
Act authorizes FEMA to provide various forms of disaster relief to the state, as the
grantee, and to state agencies, local governments, eligible private nonprofit organizations,
Indian Tribes, and Alaska Native Villages as sub-grantees. The Code of Federal
Regulations (44 CFR) provides further guidance on the requirements for and
administration of disaster relief grants. On October 30, 2000, the President signed the
Stafford Act amendments into law (Public Law 106-390). The amendments are effective
only for disasters declared after October 2000.

Public Assistance Grants

Public Assistance Grants are awarded for the repair or replacement of facilities, removal
of debris, and emergency protective measures necessary as a result of a disaster. To
receive a Public Assistance Grant, a designated representative of the organization must
sign a Notice of Interest. After the applicant completes the Notice of Interest, FEMA
schedules an inspection of the damaged facilities. Inspection teams consist of FEMA,
State, and local officials. The inspection team prepares Project Worksheets (formally
called Disaster Survey Reports), identifying the eligible scope of work and estimated



Leon Sizead & Cornparty, P.C.
FEMA                                                            Emergency Management Agency
                                                                          District of Columbia


project costs. Project Worksheets are sent to FEMA for review and approval. FEMA
approval serves as the basis for obligating Public Assistance Grant funds.

Hazard Mitigation Grants

Hazard Mitigation Grants are awarded to states to help reduce the potential of future
damage to facilities. The State must submit a letter of intent to participate in the program,
and sub-grantees must submit a hazard 'mitigation grant proposal. The State is
responsible for setting priorities for select'ing specific projects, but FEMA must provide
final approval. FEMA also approves sub-grants to local governments, eligible private
nonprofit organizations, Indian Tribes, and Alaska Native Villages. The amount of
assistance available under this program must not exceed 20 percent of the total assistance
provided under other assistance programs.

Individual and Family Grants

Individual and Family Grants are awarded to individuals and families who, as a result of a
disaster, are unable to meet disaster-related necessary expenses and needs. To obtain
assistance under this grant, the Governor of the State must express intent to implement
the program. This expressed intent includes an estimate of the size and cost of the
program. The grantee is responsibility for monitoring the program to ensure the
objectives and requirements are met. FEMA provides an administrative fee to the grantee
for administrative costs that cannot exceed 5 percent of federal grant program payments.

Administrative Funds

FEMA provides three types of administrative assistance to cover the costs of overseeing
the Public Assistance and Hazard Mitigation Grant Programs. First, an administrative
allowance was provided to cover "extraordinary" costs directly associated with managing
the programs, such as overtime and travel costs. This allowance is determined by using a
statutorily mandated sliding scale with payments ranging from one-half to three percent
of the total amount of federal disaster assistance provided to the Grantee. Second, FEMA
could award an administrative allowance referred to as "State Management Grants" on a
discretionary basis to cover the State's ordinary or regular costs directly associated with
administering the programs. Third, FEMA could award an administrative allowance for
activities indirectly associated with the administration of the programs.




Leon Snead d Compariy, P.C.
                                                             Emergency Management Agency
FEMA                                                                   District of Columbia



                    111.     OBJECTIVES, SCOPE AND METHODOLOGY

OBJECTIVES

The Department of Homeland Security (DHS), Office of Inspector General (OIG)
engaged Leon Snead & Company, P.C. to determine if the District of Columbia (1)
administered FEMA disaster assistance grant programs according to federal regulations,
and (2) accounted for, reported and used FEMA program funds properly.

SCOPE

This audit included reviewing financial and program activities for the PA, HM and IFG
programs. The universe subject to audit included 3 declared disasters in which about $5.4
million (federal share $4.1 million) were controlled by the Grantee (See Attachment A).
The cut-off date for the audit was September 30, 2002. The specific disasters open as of
September 30,2002 are as follows:


 Disaster        Disaster                                -
                                                         Date             Assistance
 Number          Type                                     Declared        Provided
 1325"           Severe Winter Storm                      4110100         PA, HM
 1338*           Severe Thunderstorms                     8117/00         PA, HM
 1389"           Severe Storms, Flooding & Mudslides      811610 1        PA, HM, IFG


 Footnote   *    Disasters included in our tests.


The three disasters included in our audit scope had obligations of about $5.4 million
(federal share $4.1 million), and total expenditures of about $3.5 million (federal share
$2.6 million). We tested 42 PA projects in 3 disasters and 4 HM projects in 3 disasters
with a total federal share amount of about $2.5 million. Specific IFG applicants were not
reviewed because the only disaster (Disaster 1389) that included the IFG program was
administrated by FEMA. The Grantee, however, was responsible for developing the
administrative plan, making payments to applicants and preparing the required grant
closeout documents. Consequently, we reviewed these aspects of the IFG program under
Disaster 1389.

The audit included the functional areas of financial and program management. Emphasis
was placed on current Grantee procedures and practices for program administration and
oversight. Our fieldwork was conducted from September 10, 2003 through December 12,
2003.




Leon Srzead & Comnparzy, P. C.
FEMA                                                         Emergency Management Agency
                                                                       District of Columbia



METHODOLOGY

The audit was performed under the authority of the Inspector General Act of 1978, as
amended, and in accordance with generally accepted government auditing standards as
prescribed by the Comptroller General of the United States (Yellow Book-2003
Revision), DHS's Office of Inspector General audit guide and 44 CFR.

We interviewed key officials and reviewed documents at the FEMA Region 111 office in
Philadelphia, Pennsylvania, to understand how the region oversees disaster programs in
the District of Columbia. The audit was conducted at the Grantee's office in the District
of Columbia.       We conducted interviews and reviewed documents to gain an
understanding of the Grantee's organizational structure and basic procedures for
managing disaster assistance grant programs.

We selected and tested records of representative projects to determine whether disaster
assistance projects and programs had been conducted in compliance with applicable
regulations.

We focused on evaluating the Grantee's systems and procedures and identifying systemic
causes of internal control weaknesses or noncompliance situations. We reviewed the
program management process, including application, approval, monitoring and reporting.
Our financial management review ,included policies and procedures relating to cash
management, cost matching, disbursing and reporting. We also evaluated compliance
with the standards for financial management systems set forth in 44 CFR 13.20, and
reviewed Single Audits performed by the State Auditor.

We were not engaged to, and did not, perform a financial statement audit, the objective of
which would have been the expression of an opinion on specified elements, accounts, or
items. Accordingly, we do not express an opinion on the costs claimed for the disasters
within the audit scope. Had we performed additional procedures or conducted an audit of
the financial statements in accordance with generally accepted auditing standards, other
matters might have come to our attention that would have been reported. This report
relates only to the accounts and items specified and does not extend to any Grantee or
District of Columbia financial statements. The audit also did not include interviews with
sub-grantees, or technical evaluations of repairs of damages caused by disasters.




Leon Snead & Company, P.C.
FEMA                                                         Emergency Management Agency
                                                                       District of Columbia



                     IV.     FINDINGS AND RECOMMENDATIONS

A. FINANCIAL MANAGEMENT

    A.l Internal Control System Documentation

         The Grantee did not document internal and management control systems to
         ensure that its controls were adequate and being followed. We attributed this
         condition to staff shortages and the workload associated with emergency
         disaster assistance programs.

         Effective control and accountability must be maintained for all grantee and sub-
         grantee cash, real and personal property and other assets (44 CFR 13.20 (a)(3)).
         Good internal control management procedures also require that systems be
         documented and evaluated to ensure all control procedures are followed and the
         personnel responsible for each control function are identified.

         Grantee officials were knowledgeable of operational procedures and controls,
         and they stated that the administrative plans for the HM, PA and F G programs
         were considered the basic control procedures for these programs. These
         management control procedures, however, had not been documented into an
         operations manual, and were not periodically evaluated to determine their
         effectiveness.

         We did not identify any material internal control weaknesses. We noted,
         however, that only one individual was responsible for both the PA and IFG
         programs, and this individual was only recently made responsible for managing
         the PA program. Furthermore, only one full-time employee was assigned to the
         HM program. This individual was also responsible for managing Project Impact
         and assisting with other disaster-related activities. This level of staffing
         significantly increases the need for documenting management control
         procedures for disaster assistance grant programs.

         Conclusion and Recommendation

         The Grantee needs to document its internal and management control systems to
         ensure all system requirements are included and the personnel responsible for
         each control function are identified. Periodic evaluations of the control system
         should also be performed.

         The Director, FEMA Region 111 should direct the Grantee to prepare written
         procedures describing its internal and management control systems, and to
         periodically evaluate the effectiveness of these control systems.




Leon Snead & Company, P.C.                  6
                                                            Emergency Management Agency
FEMA                                                                  District of Columbia


        Management Response and Auditor's Comments

         The Grantee responded that standard operating procedures (SOP) for the HM
         and IFG programs have been developed, and a SOP for the PA program will be
         completed during the third quarter of Jiscal year 2005. The SOP for the PA
        program will clearly identi& the grantee personnel responsible for each control
        function, and the control system will be consistently documented and evaluated.
         Region 111responded that the planned SOP for the PA program will be reviewed
         during a future site visit.

        Management's planned actions are responsive to the finding and
        recommendation. Future follow-up, however, will be necessary to ensure the
        SOP for the PA program is completed as planned.




Leon Snead & Company, P.C.
                                                              Emergency Management Agency
FEMA                                                                    District of Columbia



B PROGRAM MANAGEMENT

   B . l Project Monitoring

         HM project files did not include sufficient evidence to support effective project
         monitoring. Consequently, FEMA could not be assured that complete and
         accurate project status information was reported. We attributed this condition to
         insufficient documentation of sub-grantee monitoring activities.

         Grantees must monitor grant and sub-grant supported activities to assure
         compliance with federal requirements and that performance goals are being
         achieved. Grantee monitoring must cover each program (44 CFR 13.40).
         Grantees must also maintain programmatic records, supporting documents and
         other records that are pertinent to program regulations or the grant agreement
         (44 CFR 13.42).

         Our review of HM project files revealed that the files did not contain evidence
         that projects were adequately monitored. The Hazard Mitigation Officer
         informed us that monitoring activities, such as on-site visits, telephone
         conversations and data gathering conducted via e-mail were performed.
         However, these monitoring activities had not been documented in the project
         files.

         Conclusion and Recommendation

         HM project files did not include adequate documentation of project
         monitoring. Project file documentation needs to be improved to ensure effective
         monitoring of sub-grantees.

         The Director, FEMA Region I11 should ensure the Grantee documents sub-
         grantee monitoring activities in HM project files to include on-site visits,
         telephone conversations, e-mails and other written correspondence.

         Management Response and Auditor's Analysis

         The Grantee responded that HM records, including hardcopy pictures, reports
         and other materials will be maintained, and all electronic communications will
         be printed and retained for each project. Region III responded that the HMGP
         staff provided the Grantee 's Hazard Mitigation OfJicer a telephone log for
         documenting contacts with sub-grantees. The Hazard Mitigation OfJicer
         assured Region III that contacts with sub-grantees would be properly recorded,
         and this process would be included in the Grantee's SOP for the HMprogram.

         The actions taken by management are adequate to resolve the condition, and the
        finding is closed.

Leon Snend & Company, P.C.                   8
                                                             Emergency Management Agency
FEMA                                                                   District of Columbia


        Closure of IFG Program

        As of December 2003, all activity on the IFG program under Disaster 1389 had
        been completed for approximately seven months. The Grantee, however, had
        not completed the required closeout documents and the disaster remained open.
        We attributed this condition to the workload associated with recent disasters.

        Grantees shall complete all administrative activities and submit final reports and
        vouchers to the Regional Director within 90 days of the completion of all grant
        award activity (44 CFR 206.13 1 (j)(iv)),

        For the IFG program, the Grantee has the option of managing the program or
        having FEMA manage the program. For Disaster 1389, the Grantee and FEMA
        agreed that FEMA would manage the program. This decision was documented
        in a Memorandum of Understanding (MOU), dated August 23, 2001. The
        MOU, however, specified that the Grantee would retain certain management
        functions including (1) disbursing all grant funds; (2) tracking administrative
        costs; and (3) preparing the IFG program closeout package.

        Final payment for the IFG program under Disaster 1389 was made during May
        2003, and the Grantee indicated at this time that the program should be closed.
        We determined, however, that as of December 2003, the required closeout
        documents had not been prepared. The Grantee's IFG Coordinator confirmed
        that all program activities had been completed, but closeout documents had not
        been prepared and submitted to FEMA Region 111.

         Conclusion and Recommendation

        Grant award activity for the IFG program under Disaster 1389 was completed
        during May 2003. However, as of December 2003, the program remained open
        pending completion and submittal of the required closeout documents.

         The Director, FEMA Region 111 should direct the Grantee to prepare and submit
         closeout documents for the IFG program under Disaster 1389, and the program
         should be closed as soon as possible.

        Management Response and Auditor's Analysis

        The Grantee responded that the close out process was delayed due to the need
        to return unused funds. These unused funds have been returned, and once
        documentation of the receipt of the unused funds is obtained, the close out
        package will be prepared. Region 111 responded that a Region 111 and a F E W
        Headquarters official are assisting the Grantee with the close out process, and



Leon Smad & Con~pany,P.C.
FEMA                                                          Emergency Management Agency
                                                                        District of Columbia



         fnecessary, these oflcials will visit the Grantee to further expedite closing the
        close out process.

        The actions taken by management are responsive to the Jinding and
        recommendation. However, future follow-up is needed to ensure the close out
        process for the IFG program under Disaster 1389 isfully completed.




Leon Snead & Company, P.C.
FEMA                                               Emergency Management Agency
                                                             District of Columbia




                              V.   ATTACHMENTS 





Leon Snead d Company, P, C.
         FEMA                                                                  Emergency Management Agency
                                                                                         District of Columbia



                                                                                            Attachment A


                                 Schedule of Source and Application of Funds
                             District of Columbia Emergency Management Agency
                                     Disaster Assistance Grant Programs
                                             As of September 30,2002



                                  All Disasters - Numbers 1325 through 1389

                                             Public             Individual      Hazard            Total
                                            Assistance          & Family       Mitigation        Disaster
                                             Grants               Grants        Grants           Grants

Award Amounts

   Federal Share

   Local Matchistate Share


Total Award Amount



Source of Funds

   Federal Share

  Local MatcWState Share


Total Source of Funds



Application of Funds

  Federal Share

  Local MatcWState Share


Total Application of Funds


Balance of Federal
Funds On Hand



          Leon Snead & Company, P.C.                          12
         FEMA                                                                    Emergency Management Agency
                                                                                           District of Columbia



                                                                                              Attachment 8-1
                                   Schedule of Source and Application of Funds
                              District of Columbia Emergency Management Agency
                                       Disaster Assistance Grant Programs
                                               As of September 30,2002



                             Disaster Number 1325 - Declaration Date - April 10,2000

                                               Public             Individual      Hazard            Total
                                              Assistance           & Family      Mitigation        Disaster
                                               Grants               Grants        Grants           Grants

Award Amounts

  Federal Share

  Local MatcNState Share


Total Award Amount



Source of Funds

  Federal Share

  Local MatchIState Share


Total Source of Funds



Application of Funds

  Federal Share

  Local MatchIState Share


Total Application of Funds


Balance of Federal
Funds On Hand




          Leon Snead h Company, P.C.
         FEMA                                                                      Emergency Management Agency
                                                                                             District of Columbia



                                                                                                Attachment A-2


                                       hedule of Source and Application of Funds
                               District of Columbia Emergency Management Agency
                                       Disaster Assistance Grant Programs
                                               As of September 30,2002



                             Disaster Number 1338 -Declaration Date - August 17,2000

                                               Public            Individual         Hazard           Total
                                              Assistance          & Family         Mitigation       Disaster
                                               Grants              Grants           Grants          Grants

Award Amounts

  Federal Share

  Local Matchistate Share


Total Award Amount



Source of Funds

  Federal Share

  Local MatchIState Share


Total Source of Funds



Application of Funds

  Federal Share


  Local MatchIState Share


Total Application of Funds


Balance of Federal
Funds On Hand




          Leon Snead & Company, P.C.
            FEMA                                                                     Emergency Management Agency
                                                                                               District of Columbia



                                                                                                  Attachment A-3
                                       Schedule of Source and Application of Funds
                                   District of Columbia Emergency Management Agency
                                            Disaster Assistance Grant Programs
                                                   As of September 30,2002



                                 Disaster Number 1389 - Declaration Date - August 16,2001

                                                    Public            Individual      Hazard            Total
                                                   Assistance          & Family      Mitigation        Disaster
                                                    Grants              Grants        Grants           Grants

Award Amounts

   Federal Share

   Local Matchistate Share


Total Award Amount



S o u r c e of F u n d s

   Federal Share

   Local MatcNState Share


Total Source of Funds



Application of F u n d s

   Federal Share

   Local MatcNState Share


Total Application of Funds


B a l a n c e of F e d e r a l
F u n d s On H a n d




             Leon Srzead & Company, P. C.
FEMA                                      Emergency Management Agency
                                                    District of Columbia




                             ATTACHMENT B
                         MANAGEMENT COMMENTS




Leon Sizead & Company, P.C.
                                                                     U.S. Department of Homeland Security
                                                                     Region 111
                                                                     One Independence Mall, Sixth Floor
                                                                     615 Chestnut Street
                                                                     Philadelphia, PA 19 106-4404




                             JUN 112085
                                                                      FEMA
MEMORANDUM FOR: Gary J. Barard
                Field Office Director, IG-AU-ED

FROM:
                            2-v.q , a L u .
                          Patricia G. Arcuri
                          Acting Regional Director

SUBJECT:                  Audit Report for the District of Columbia's Administration of
                          Disaster Assistance Funds

FEMA Region II19sresponse to the findings in the subject audit report and the anticipated
actions to be taken by my office to resolve these findings, in partnership with the District
of Columbia Emergency Management Agency (DCEMA), are listed below. A copy of
DCEMA's response letter to the auditor's findings, dated May 23,2005, is attached.

    1. Financial Management: Internal and Management Control Systems

       DCEMA has confirmed that they will clearly identify separate personnel
       responsibility for each control function and document the process in a Public
       Assistance Standard Operating Procedure (SOP) during the third quarter of Fiscal
       Year 2005. Region I11 staff will request a copy of the completed SOP for review
       and follow-up during a future site visit. We anticipate closure of this finding after
       we receive and review a copy of the SOP,

    2. Program Management: Hazard Mitigation Subgrantee Monitoring

        Since receiving the audit report and noting the finding regarding the documenting
        of grant monitoring, Region I11 Hazard Mitigation Grant Program (HMGP) staff
        has been in contact with Ms. Patrice White, District Hazard Mitigation Officer,
        for the purpose of sharing with her the format for documenting a telephone log of
        contacts made between her office and grant recipients. The format shared has
        been successfully utilized by HMGP staff in other Region 111 States. Ms. White
        assured FEMA that the logging of contacts made to the subgrantees will be made
        a part of the DCEMA's SOP for HMGP.

    3. Pronram Management: Individual and Family Grant Program Documentation

        DCEMA has acknowledged that they have been remiss in sending the necessary
        reports and information to affect closure of the Individual and Family Grant
       Program for FEMA-1389-DR-DC. DCEMA staff are currently assimilating
       the reports and documentation and anticipate addressing this finding by
       June 24,2005. Ms. Suzann Cowie, Region 111, and Mr. Tomas Quinones, FEMA
       Headquarters, are working closely with Mr. Russell Gardner, DCEMA, to answer
       any questions and assist with closure. If the situation warrants, Tomas and
       Suzann will make a site visit to the District to support this effort.

       In the event that the District does not comply with needed reports and
       information, Region I11 has the option of sending the District a bill for the entire
       grant amount, negating the Federal side of assistance provided. We do not
       anticipate that this will be necessary.

As noted, FEMA Region I11 continues to work with the District to improve its overall
disaster assistance funds administration. If you have any questions, please contact Mr.
Daniel Joyce of my staff at (21 5 ) 93 1-5516 or via email at daniel.ioyce1@dhs.nov.

Attachment
                        GOVERNMENT OF THE DISTRICT OF COLUMBIA
                              Emergency Management Agency
 Anthony A, Williarns
 Mayor




                                                May 23,2005



Ms. Patricia Arcuri
Acting Regional Director
U.S. Department of Homeland Security
Federal Emergency Management Agency
 Region 3
6 15 Chestnut Street, 6thFloor
Philadelphia, Pennsylvania 19106-4404

Dear Ms. Arcuri:

Leon Snead & Company P.C. completed an audit of the District o f Columbia Emergency
Mmagement Agency, at the request of the Department of Homeland Security, Office of the
Inspector General. The audit was conducted to assess compliance with the Robert T. Stafford
l3saster Relief and Emergency Assistance Act and applicable Federal. regulations. Upon
concIusion of the audit Leon Snead & Company reported the following recommendations:
(1) Financial Management: The grantee did not document internal and management control
systems to ellsure its controls were adequate and being followed; (2) Program Management:
f-kmrd Mitigation project files did not include suficient evidence to support effective project
nlonitoring; and (3) Program Management: Closeout documents for the Individual and Family
Grant Pr0sfu.x (IF@ were not prepared within the required timefrarnes.

On May 17, 2005, the auditor conducted an exit interview to review the findings and
recommendations. Enclosed is the response to the audit report prepared by Leon Snad &
Company. Ifyou have questions, please contact Sandra Perkins, 202-727-3 150. Ms. Perkins
will coordinate with our program managers regarding any outstanding concerns.

Sincerely,




Barbara A. Cliilds-Pair
Director

cc: Daniel Joyce, Emergency A n d yst




                                                        -   -         .-   -



     2000 I 4"'Street. N.W., g6" Floor, Wnshington, 0.C. 20009   (202) 727-6 I6 f   Fax (303) 673-2290
                             Government of the District of Coluinbia
                             Emergency Management Agency (EMA)

.     Response to Audit Report: Disaster Assistance Funds   - May 17,2005
      U S . Department of Homeland Security
    . Office of the Inspector General
      Atlanta Field Office - Audit Division
      Leon Snead & Company (Independent Accounting F i m )


      Summary

      The scope o f the audit consisted o f financial and program activities for three (3)
      Presidentid Disaster Declarations open as of September, 2002. These were 46 Public
      Assistance, Hazard Mitigarion and the Individual and Family Grant program. Nothing
      became evident during the audit that questioned the accuracy of the information
      contained in the financial reports submitted to the Federal Emergency Management
      Agency (FEMA).

      Current Follow-UP Actions

      The EMA must prepare and submit a written response to FEMA, Region 111 addressing
      the findings and recommendations presented in the audit report. Due date to be
      detem-lined by Region 111.

      Maior Findings

      The program audit report disclosed the following recommendations:
      1. Financial Management: me grantee did not document internal and management
       . control systems to ensure its controls were adequate and being followed.

     2. Program Management: Hazard Mitigation project files did not include sufficient
        evidence to support effective project monitoring.

     3. Program Management: Closeout documents for the individual and Family Grant
        Program (IFG)were not prepared within the required timeframes.

     Rationale and Remedy

     1. Fimhcial Management: The grantee did no! docu~~.rent       internal and nzanagement
        control sy-~temsgo ensure its controk were ~ldequare(2nd beingfollowed.

     As was stated in the Finding and Recommendations section of the audit staff shortages
     and the workload xssociated with the conduct of disaster assistance programs .greatly
     contributed to the lack of documentation. In future, related circumstances, EMA will
clearly identify separate and distinct personnel responsible for each control function. The
control systems used will be consistently and constantly documented, using elect&ic
technology with retried backup, thoroughly reviewed and evaluated. Even though
grantee personnel were knowledgeable of pertinent operational procedures, these
management controls procedures have not been developed into an operational rnamal,
with the exception of the Hazard Mitigation and Individual and Family Grant SOPS.
hformation contained in the District of Columbia Public Assistance Administrative Plan
wilI be captured from those plans and compiled into a Public Assistance SOP during the
third quarter of FY'OS. The heavy workload of the disaster assistance staff does increase
the need for documenting management control procedures. To that end, EMA will
conduct local hires according to the procedures established in the Public Assistance and
Individual and Family Grant Program and Hazard Mitigation Administrative Plans.

2. Propam Management: Huzmd Mitigcc~ianproject j 2 e s did not include suficienf
   evidence to support @i?ciive project moniroring.

Relative to program management, the hazard mitigation project files did not include
sufficient evidence to support effective project monitoring. AS well, closeout documents
for the Individual and Family Grant program were not prepared within the required
timeframes.

With regard to project monitoring, during the period of this disaster, the DCBMA
facilities were undergoing tremendous renovations. A portion of the staff was located in
small temporary spaces on various floors in the Reeves Municipal Center with some of
their current working materials, while others were housed in short term storage rental
wits. As was previously, cited in this response a Hazard Mitigation SOP has been
developed and is ready for use. In future conditions, DCEMA disaster staff wiIl maintain
records including hardcopy pictures, reports and other materials on file. All electronic
communications, including digital maps will be printed and retained for each project, as
appropriate.

3. Frogrcim Mcmagernent: Closeolrt documents for he 'lnciividuul and firnib Grant
    Progana (IFG) were not prepured within the required timeframes

The disaster in question occurred in August 2001 and it was the first time that the IFG
had been approved for the District of Colunlbia Government. Even though program staff
had received program training, the actual implementation of the program was conducted
by first time, inexperienced person (s). In addition, ahere was confbsion over close out
responsibilities which spanned a period over two years, FEMA IFG specialist at Mt.
Weather, 50 Yerkes, and FEMA Region 111 IFG specialist Eileen Fidele disagreed over
who was responsible for the program close out, Mr. Yerkes insisted that it was FEMA's
responsibility, while Ms. Fidele insisted that the responsibility rested with the District
@MA). EventualIy, Ms. Fidele called Mr. Russell Gardner, the Disrrict's 1FG progranl
manager, and informed him that the responsibility rested with the District, Further, ~ n c e
the close out documents were prepared, Pam Y?illis, FEMA, Region 111, informed Mr.
Gardner that the close out would not be able to be completed due to a need to return
umsed funds. These funds were returned. Once receipt of the documentation of the funds
being returned to FEMA is received, then the close out package will be submiffed by
K E M A within 30 days for processing.

Conclusion

In short, DCEMA will document its financial and program controls in the form of an
electronic database.
